U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

March 2, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Derrick Lakeith Brown v. United States of America,
S.Ct. No. 20-7077

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on January 1,
2021, and placed on the docket on February 8, 2021. The government’s response is due on
March 10, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including April 9, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-7077
BROWN, DERRICK LAKEITH
USA

DERRICK LAKEITH BROWN
PRISONER NO. 20986-076
USP ADX
PO BOX 8500
FLORENCE, CO 81226

